NATIONAL
TELECOMMUNICATIONS
AND I NFORMATION
ADMINISTRATION
NTIA Needs Stronger
Monitoring of BTOP Grant
Recipients’ Match



FINAL REPORT NO. OIG-12-029-A
JUNE 18, 2012


U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation



FOR PUBLIC RELEASE
                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                     Office of Inspector General
                                                     Washington, D.C. 20230




June 18, 2012


MEMORANDUM FOR:              Lawrence E. Strickling
                             Assistant Secretary for Communications and Information
                             National Teleco,munications and Information Administration

FROM:                        Ann C.   Eile~~            ()    Fi f.&v,
                             Principal Assistant lnspecto?-ceneral for Audit and Evaluation

SUBJECT:                     NT/A Needs Stronger Monitoring of BTOP Grant
                             Redpients' Match
                             Final Report No. OIG-12-029-A

We are providing our final audit report on the effectiveness of NTIA monitoring of the
Broadband Technology Opportunities Program (BTOP) grant recipients' match. The objectives
of our audit were to (I) determine whether NTIA has processes in place to ensure BTOP
matching share contributed by grantees meets the terms and conditions of the award; (2) assess
how NTIA monitors the grantees' match throughout the grant award period; and (3) review
how NTIA and grants officers address grantees' postaward requests for changes in type of
match (e.g., cash, equipment, or i~-kind contributions) and changes in subrecipients or other
partners that agreed during the application process to provide matching share.

Our report recommends steps to improve NTIA's existing oversight of grantee match.
Specifically, we recommend that NTIA strengthen monitoring of Public Computing Centers and
Sustainable Broadband Adoption grant match, bolster recipient controls for cash drawdowns,
continue to improve proper recording of grant recipient match, and strengthen proportional
spending of grant match contributions.
Your June 6 response to our draft report states that NTIA is taking appropriate action to
address recommendations and summarizes the steps NTIA plans to take. Where appropriate,
we have modified the final report based on this response and subsequent discussions with
NTIA officials. The formal NTIA response is included as an appendix. The final report will be
posted on the OIG's website pursuant to section 8L of the Inspector General Act of 1978 as
amended.
In accordance with the Department Administrative Order 213-5, within 60 days of the date of
this memorandum, please provide us with an action plan that responds to all of the report
recommendations.

We would like to express our thanks to your staff for the courtesies shown to us during our
review. Please direct any inquiries regarding this report to Chris Rose, Senior Auditor,
Recovery Act Task Force, at (202) 482-5558, and refer to the report title in all
correspondence.
Attachment
cc: 	   Ellen Herbst, Senior Advisor to the Deputy Secretary
        Angela Simpson, Acting Chief of Staff and Senior Advisor on Broadband, NTIA
        Anthony Wilhelm, Deputy Associate Administrator,
          Office of Telecommunications and Information Applications, NTIA
        Kathy Smith, Chief Counsel, NTIA
        Aimee Meacham, Director of BTOP Program Services, NTIA
        Milton Brown, Audit Liaison, NTIA
                                       Report In Brief                                       J U NE 1 8 , 2 0 1 2




Background                          NATIONAL TELECOMMUNICATIONS AND INFORMATION
From the time the President         ADMINISTRATION
signed the American Recovery
and Reinvestment Act of 2009        NTIA Needs Stronger Monitoring of BTOP Grant Recipients’
into law, OIG has provided over-    Match
sight of NTIA’s administration of
the $4.4 billion Broadband Tech-    OIG-12-029-A
nology Opportunities Program
(BTOP). The Recovery Act re-        WHAT WE FOUND
quires BTOP grantees to provide
at least a 20 percent nonfederal    To oversee grant recipients’ match throughout the award, including postaward,
matching share.                     NTIA monitors cash drawdowns, reviews grantees’ quarterly financial reports
On September 27, 2010, NTIA         for matching share, and documents proportionality waivers. In December 2010,
awarded 233 BTOP grants, in-        NTIA developed a match matrix to review grant match. NTIA’s reviews of CCI
cluding Comprehensive Commu-        grants included an in-depth review of all proposed budgeted match line items.
nity Infrastructure (CII), Public   However, for the SBA and PCC grants, NTIA’s match matrix did not provide
Computing Centers (PCC), and        sufficient information to determine if NTIA’s review was thorough and effective.
Sustainable Broadband Adoption      We also found two internal control vulnerabilities with respect to access to the
(SBA) grants. By March 31, 2012,    Treasury Automated Standard Application for Payment (ASAP) system to make
the number of BTOP grants had       cash drawdowns. In addition, 32 percent of our sample of grantees did not
decreased to 228 due to grant       record all of their match amounts in their financial records. Finally, a significant
cancelations and terminations.
                                    number of grant recipients were not in compliance with the proportionality
Why We Did This Review              clauses of their grants.

Our audit objectives were to        WHAT WE RECOMMEND
1. 	 Determine whether NTIA
                                    We recommend that the Assistant Secretary for Communications and
     has processes in place to
     ensures that the matching
                                    Information:
     share contributed by BTOP      1. 	 Develop and implement improved processes for reviewing PCC and SBA
     grantees meets the terms            grant match amounts.
     and conditions of the award.
                                    2. 	 Formally communicate the risk associated with third-party cash drawdowns
2. 	 Assess how NTIA monitors
     the grant recipients’ match
                                        to all grant recipients and stress the importance of increased monitoring on
     throughout the grant award         their behalf when allowing third parties to draw down grant funds from the
     period.                            Treasury ASAP system.
3.	 Review how NTIA and             3. 	 Implement program office controls to closely monitor ASAP drawdowns on
    grants officers address re-         a timely basis, especially those grant recipients that have delegated ASAP
    cipients’ postaward requests        system access to third parties.
    for changes in type of match
    (cash, equipment, or in-kind    4. 	 Communicate to recipients that match expenditures must be supported and
    contributions) and changes          correctly reflected in their financial records.
    in subrecipients or other
                                    5. 	 Work with NIST and NOAA grants officers to provide NTIA with the BTOP
    partners that agreed during
    the application process to          grantees’ quarterly financial status reports and monitor the contribution
    provide matching share.             trends and proportionality waiver activity to ensure grantees are providing
                                        their required match.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                OFFICE OF INSPECTOR GENERAL


Contents
Introduction ......................................................................................................................................................1
 
Findings and Recommendations ....................................................................................................................5
 
   I. NTIA Needs to Thoroughly Review PCC and SBA Grant Match Amounts t	 o Ensure 

      Their Accuracy and Availability .............................................................................................................6
 
   Recommendation..........................................................................................................................................8
 
   II. NTIA Needs to Ensure That Grantees Have Strong Monitoring Controls for Cash 

       Drawdowns from the Treasury ASAP System and That the NTIA Program Office 

       Effectively Monitors These Drawdowns ............................................................................................8
 
   Recommendations..................................................................................................................................... 10
 
   III. NTIA Needs to Ensure That BTOP Grantees Record Their Grant Match in Their

        Financial Records ................................................................................................................................. 10
 
   Recommendation....................................................................................................................................... 12
 
   IV. NTIA Needs to Ensure That Match Contributions Are Proportionate to Grant-Funded 

       Expenditures ......................................................................................................................................... 12
 
   Recommendation....................................................................................................................................... 13
 
   Other Issues ............................................................................................................................................... 13
 
Summary of Agency Response and OIG Comments............................................................................. 15
 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 16
 
Appendix B: OIG Sample Methodology.................................................................................................... 19
 
Appendix C: NTIA’s Criteria, Data, and Report Review of BTOP Grant Match.......................... 21
 
Appendix D: Agency Response .................................................................................................................. 22
 
                                                                                                                                                                      

                                                                                                                                                                      

                                                                                                                                                                      

                                                                                                                                                                      

                                                                                                                                                                      

                                                                                                                   COVER: Detail of fisheries pediment, 
                                                                                                          U.S. Department of Commerce headquarters,
 
                                                                                                                  by sculptor James Earle Fraser, 1934
 

                                                                                                                                                                       

                                                                                                                                                                      




FINAL REPORT NO. OIG-12-029-A
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL


Introduction

From the time the President signed the American Recovery and Reinvestment Act of 20091
into law, the Department of Commerce Office of Inspector General (OIG) has provided
oversight of NTIA’s administration of the $4.4 billion2 Broadband Technology Opportunities
Program (BTOP). In his February 2011 testimony on broadband spending before the House
Committee on Energy and Commerce, Subcommittee on Communications and Technology,3
the Inspector General focused on the need for effective award monitoring and oversight,
including concerns with recipient matching funds, especially the existence and availability of
match. The Recovery Act requires BTOP grantees to provide a 20 percent nonfederal matching
share. However, in its second Notice of Availability of Funds issued on January 22, 2010, NTIA
announced that it was providing additional consideration for applicants proposing a nonfederal
match of 30 percent or more during the competitive award selection process.4 As underscored
by this statutory requirement for a minimum match and this extra consideration offered by
NTIA to applicants who provide additional match, the grantees’ match is essential to the
financial success of the proposed broadband projects.
Table 1 contains a summary of the 228 current BTOP grants, including Comprehensive
Community Infrastructure (CCI), Public Computing Centers (PCC), and Sustainable Broadband
Adoption (SBA) grants, and their proposed nonfederal match as of December 31, 2011.5 As
shown in table 2, two BTOP awards had grants issued with a hardship waiver for less than the
20 percent required nonfederal match. The Recovery Act provides the Assistant Secretary
authority to waive the 20 percent match requirement based on financial need if the applicant
petitions for a waiver. As shown in table 3, three BTOP grantees had their nonfederal match
reduced after the grant awards were made.




                                                            
1
   Pub. L. No. 111-5. 

2
   The Recovery Act established BTOP with $4.7 billion, including administration and oversight expenses. A $302 

million rescission occurred in August 2010 pursuant to Pub. L. No. 111-226, reducing the total funding. In all, 

BTOP initially awarded $3.9 billion in grants; however, five grants with awards totaling $120 million were canceled/ 

terminated, and two grants were reduced by $6 million in total. The remaining funding went to develop and update

the publicly searchable National Broadband Map, administrative expenses, and transfers to the OIG for oversight 

and the Federal Communications Commission for the development of a national broadband plan. 

3
   U.S. Department of Commerce, Office of Inspector General, February 10, 2010. Inspector General’s Testimony on 

Recovery Act Broadband Spending: House Committee on Energy and Commerce. Washington, D.C.: Department of 

Commerce OIG.

4
   U.S. Department of Commerce, National Telecommunications and Information Administration, Broadband 

Technology Opportunities Program. 75 Fed. Reg. 3799–3800 (Jan. 22, 2010). 

5
   On September 27, 2010, NTIA concluded the BTOP award process with 233 grants. By March 31, 2012, the 

number of BTOP grants had decreased to 228 due to grant cancelations and terminations.



FINAL REPORT NO. OIG-12-029-A                                                                                       1
  DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL

Table 1. BTOP Federal Grant Awards and Matching Funds
Project Type             No. of Awards/      Federal Funds     Percent of     Recipient Match    Total Cost
                         Average Grant                          Federal
                         Match Percent                           Funds

Comprehensive                 120
Community                                   $3,358,774,652        88%         $1,198,699,569    $4,557,474,221
Infrastructure               26.3%

                               65
Public Computing
                                             199,244,164          5%              85,023,612         284,267,776
Centers
                             29.9%

Sustainable                    43
Broadband                                    249,525,540          7%             106,642,208         356,167,748
Adoption                     29.9%

Total                         228           $3,807,544,356       100%         $1,390,365,389    $5,197,909,745

Source: OIG based on NTIA data

Table 2. BTOP Federal Grant Awards with Less Than 20 Percent Matching Funds
                           Total Grant       Federal         Nonfederal         Match      20 Percent         Match
   Award Grantee
                            Amount            Funds            Match           Percent       Match          Difference

Board of Regents
                            $95,016,532     $80,596,415       $14,420,117         15.2%   $20,149,104        $5,728,987
State of Louisianaa 
Executive Office             83,987,788      70,055,000        13,932,788         16.6%     17,513,750        3,580,962
State of Mississippi
Total                                                                                                        $9,309,949
Source: OIG based on NTIA data
a
  Terminated October 26, 2011.

Table 3. BTOP Federal Grant Awards with Matching Funds Reduced After the Grant Award
                                                                             Revised       Revised
                                             Nonfederal       Match
   Award Grantee            Federal Funds                                   Nonfederal      Match       Change in Match
                                              Match          Percent
                                                                              Match        Percent
Communication
Services for the Deaf,       $14,988,657      $5,229,846      25.9%          $4,571,139     23.4%            $ 658,707
Inc.
Adams County
Communications                12,137,422       5,891,647      32.7%           4,541,340     27.2%             1,350,307
Center
MCNC                          28,225,518      11,760,038      29.4%          10,286,573     26.7%             1,473,465


Total                                                                                                        $3,482,479

Source: OIG based on NTIA data




FINAL REPORT NO. OIG-12-029-A                                                                                        2
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

NTIA faces the following challenges in ensuring that the nonfederal match needed to complete
BTOP projects exists and is available in a timely manner:

    	 BTOP award recipients include public entities, for-profits, nonprofits, and tribal entities;
       this is the first time that NTIA has made awards to for-profit entities, which represent
       almost 24 percent of the number of awards. Eligible costs, including each recipient’s
       nonfederal match, are established by federal cost principles, which each grantee uses to
       prepare a budget to complete the approved project. Without the required nonfederal
       match, project completion can be jeopardized.

    	 BTOP grantees use the Treasury Automated Standard Application for Payment (ASAP)
       system to request online cash transfers to their bank account to pay project costs.
       Once the recipients meet the environmental assessment special award conditions, they
       can draw down up to the full amount of the grant in anticipation of expenses to be
       incurred within 30 days. NTIA will need to closely monitor recipients’ drawdown of
       funds to ensure that it is in accordance with their spending rate as directed by the grant
       agreement.

    	 BTOP grantees file quarterly financial status reports of their grant-funded and
       nonfederal match expenses. NTIA monitors grantee match through the National
       Institute of Standards and Technology (NIST) and National Oceanic and Atmospheric
       Administration (NOAA) grants offices, using a proportionality waiver for grantees that
       do not contribute their proposed match at the same general rate as their grant-funded
       expenses. Unless total match and the budget line items for match are monitored, NTIA
       has no assurance that recipients are providing the grant-required match and that the
       recipients’ match meets the BTOP program requirements.

    	 BTOP state and local governments and nonprofit recipients expending $500,000 or more
       in a year in federal awards are required to have annual single audits, and for-profit
       entities receiving more than $100,000 annually are required to have a financial audit after
       their first and third year. These audits require auditors to report on grant expenditures
       and to test for 14 major compliance requirements, including match expenditures. Unless
       match is tested as part of a single audit or BTOP program-specific audit, NTIA has no
       assurance that the match meets federal cost principles of being reasonable, allowable,
       and allocable.

From the outset of the program, OIG has stressed the importance of match documentation and
oversight in training sessions and presentations to BTOP staff, applicants, and grantees, as well
as in OIG Congressional testimony.

The objectives of our audit were to

    1.	 determine whether NTIA has processes in place to ensure that the BTOP matching
        share contributed by grantees meets the terms and conditions of the award,

    2.	 assess how NTIA monitors the grantees’ match throughout the grant award period, and



FINAL REPORT NO. OIG-12-029-A                                                                         3
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

       3.	 review how NTIA and grants officers address recipients’ postaward requests for
           changes in type of match (e.g., cash, equipment, or in-kind contributions) and changes in
           subrecipients or other partners that agreed during the application process to provide
           matching share.

To ensure that NTIA processes were in place and effective, we selected a random sample of 25
BTOP grant recipients to review from the 228 grant recipients.6 Our sample included CCI,
PCC, and SBA grant recipients to reflect the composition of the BTOP grants. See appendix A
for a detailed summary of our audit objectives, scope, and methodology; appendix B for our
sample methodology; and appendix C for NTIA’s criteria, data, and report review of BTOP
grant match.




                                                            
6
  At the time of sample selection, 229 BTOP grants were active; however, 1 grant award has since been
terminated. 


FINAL REPORT NO. OIG-12-029-A                                                                           4
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL


Findings and Recommendations 

NTIA has a process in place to monitor grant recipients’ match throughout the award, including
the postaward period, by taking steps to develop a match review process, monitor cash
drawdowns, review grantees’ quarterly financial reports for matching share, and document
proportionality waivers. Proportionality waivers temporarily waive the requirement that the
grantee spend the nonfederal share at the same general rate as grant funds, for grantees behind
on their quarterly match proportionality rate.

In December 2010, NTIA developed a match matrix to review grant recipients’ proposed
match. During this review, NTIA analyzes the recipients’ match sources listed in their approved
budget to determine if the proposed match is allowable. NTIA then sends the resulting matrix
to the grant recipient for validation and clarification where needed. Figure 1 illustrates NTIA’s
complete review process.

Figure 1. NTIA BTOP Match Matrix Review Process



                                                                                    • Project officer
              • Project                         • Project officers
                                                                                      and grantee
                identified for                    review match
   Grantees                                                                           finalize match
                review               Grantees   • Grantee reviews        Review
                                                                                    • Grants officer
   selected   • Original match       reviewed     match and             completed     processes
                contribution                      returns matrix
                                                                                      amendment, if
                identified                        to BTOP
                                                                                      needed




Source: OIG based on NTIA data
Note: NTIA’s review of grant recipient match does not include requesting or reviewing supporting documentation
to verify the proposed match line items.

NTIA’s match matrix review process allows recipients to understand the grant conditions more
clearly and promptly identifies potential issues regarding match contributions. Despite these
measures, our review found grant match problems that require stronger monitoring and
corrective action by NTIA, including:

    	 thoroughly reviewing grant match budgets for PCC and SBA grants (i.e., completing
       budget analysis by line item and expanding program match review processes to a larger
       percentage of the PCC and SBA grant recipients),

    	 ensuring that grantees have strong monitoring controls for cash drawdowns from the
       Treasury ASAP system and that the NTIA Program Office effectively monitors these
       drawdowns,

    	 ensuring that grantees record their grant match in their financial records, and




FINAL REPORT NO. OIG-12-029-A                                                                                    5
  DEPARTMENT OF COMMERCE
U.S.                                                                                           OFFICE OF INSPECTOR GENERAL

       	 ensuring that grant match contributions are proportionate to grant-funded 

          expenditures. 


I. NTIA Needs to Thoroughly Review PCC and SBA Grant Match Amounts
   to Ensure Their Accuracy and Availability

NTIA initially selected nine grant recipients for its postaward match review. By reviewing
budgeted match by line items for these CCI recipients, NTIA was able to refine its match
review process and recognize the benefits of this process. According to Department of
Commerce standard terms and conditions, the nonfederal share, whether in cash or in-kind, is
expected to be paid out at the same general rate as the federal share,7 thus assuring the
availability of match during the grant period. By December 2011, NTIA had expanded its match
review to 160 of 228 grantees, as shown in table 4, including all CCI grantees. Any PCC and
SBA grantees that were first-time grantees with more than $5 million in match were also
selected for match review.

Table 4. Number of Grantees Reviewed by NTIA and by OIGa
Project Type                                                   BTOP       NTIA     OIG
                                                               Grantees   Match    Sample of
                                                                          Review   BTOP
                                                                                   Grantees
Comprehensive Community
Infrastructure                                                   120        120       13

Public Computing Centers                                          65         22        7
Sustainable Broadband Adoption                                    43         18        5
Total                                                            228        160       25
Source: OIG sample and NTIA data
a
  See footnote 5.

We reviewed NTIA’s results for the 25 grants in our sample. NTIA’s match reviews of CCI
grants included an in-depth review of all proposed budgeted match line items to ensure that
match sources were in place and well documented, as described in figure 1. Of the 13 CCI
grant recipients that we reviewed, 7 had shifts in match budget line items, totaling more than $2
million, but none of these shifts, resulting from the BTOP match review process, changed the
recipients’ total proposed nonfederal match. For example, one grantee determined that
equipment contributed as match had been incorrectly valued at $1.6 million when it should
have been valued at $1.3 million. This caused a shortage in match, and therefore, the grantee
revised its budget to include additional cash contributions to meet match requirements.
Another grantee revised its match budget to increase the cash match by close to $800,000
instead of providing in-kind equipment contributions as originally proposed by the grantee.

For the SBA and PCC grants that we reviewed, NTIA’s match matrix did not provide sufficient
information to determine if NTIA’s review was thorough and effective. The match matrices for
                                                            
7
 U.S. Department of Commerce, March 2008. Financial Assistance Standard Terms and Conditions. Washington, D.C.:
Department of Commerce, 3.


FINAL REPORT NO. OIG-12-029-A                                                                                           6
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

these grants did not provide budget line item detail, as the CCI matrices we reviewed did. For
example, NTIA completed a match review matrix for an SBA grant recipient that stated that
the information provided in the recipient’s quarterly performance report as of September 30,
2011, matched the recipient’s detailed budget; no other information or detail was provided
regarding future match contributions or changes in match. The SBA grant recipient’s response
to our request for information on proposed match was that its matching share is evolving as
the project progresses and funding from other grants becomes available. Because of the
recipient’s uncertain response, we do not have assurance that it will meet match requirements.
Additionally, we are not confident that NTIA is able to identify potential match issues for these
categories of awards with their current PCC/SBA match review process. Without a more
thorough NTIA match review, we did not have enough evidence to determine how NTIA could
identify issues with proposed match for other PCC and SBA grants.

BTOP grantees, governments, nonprofits, tribal entities, and colleges and universities are
required by OMB Circular A-133 to have an annual audit performed by an independent audit
firm.8 However, based on the independent auditors’ reports that we reviewed for these
recipients, 33 PCC and 11 SBA grants might not have had their match tested because the
grantees’ expenditures fell below the dollar thresholds that would result in a more detailed
review by the independent auditors. Without a thorough review from NTIA or the
independent auditors, the risk of fraud, waste, and abuse increases and may go undetected.

The match matrix process has been demonstrated to be an effective tool when used properly,
as with CCI grants, and is a potential best practice to assure that grantees have timely match
available and have accurately calculated the match value to assure that BTOP projects can be
completed within the 3-year grant period. Expanding the match review process to a larger
percentage of the PCC and SBA grants and including a review at the budgeted line item level
would compensate for the gaps in single-audit coverage and provide added assurance that
grantees have complete and accurate match for the total $1.4 billion match required from all
228 grantees.

NTIA officials told us that they are in the process of determining the level of BTOP project
monitoring, including review of grant match, that can be sustained after NTIA’s program
support contract completes its initial term in March 2012. A renewal of the support contract is
anticipated at reduced funding from present levels and with a reduced level of support staff,
requiring NTIA to prioritize the most critical risks to the BTOP program. Despite funding
limitations, grant match is important for the success of the projects, and NTIA should look for
opportunities to strengthen grant match monitoring and reduce the potential for questioned
cost at the end of BTOP grant awards.




                                                            
8
  An audit completed by an independent auditor is commonly referred to as a single audit. During the single audit, 
the independent auditor sets dollar limits to determine which items will be reviewed. 


FINAL REPORT NO. OIG-12-029-A                                                                                     7
  DEPARTMENT OF COMMERCE
U.S.                                                                                             OFFICE OF INSPECTOR GENERAL


Recommendation

We recommend that the Assistant Secretary for Communications and Information:

       1.	 Develop and implement improved processes for reviewing PCC and SBA grant match
           amounts (for example, completing budget line item detail analysis on PCC and SBA
           grants and expanding NTIA’s match review process to a larger percentage of PCC and
           SBA grant recipients).

II. NTIA Needs to Ensure That Grantees Have Strong Monitoring Controls
    for Cash Drawdowns from the Treasury ASAP System and That the NTIA
    Program Office Effectively Monitors These Drawdowns

We found two internal control vulnerabilities with respect to NTIA’s safeguarding of assets in
the Treasury ASAP system: (1) contractors can draw down funds, and (2) grantees can draw
down funds that exceed their expenditures. The Government Accountability Office has issued
Standards for Internal Control in the Federal Government,9 which provides an overall framework for
establishing and maintaining internal control, including the need to secure and safeguard
vulnerable assets. This vulnerability to risk of loss or unauthorized use may not be fully
appreciated by first-time BTOP grantees. Moreover, unlike grant recipients, contractors and
other parties are not required to comply with the award conditions and, therefore, need
additional monitoring by the grant recipient when they are allowed to draw down grant funds.

For example, 2 grant recipients of the 25 in our sample permitted their project partners
(contractor in the case of 1 grantee) to draw down federal grant funds from the Treasury ASAP
system for more than a year, totaling $9.3 million (see table 5). BTOP monthly status meetings
and reports include presentations on grant recipient cash drawdowns that exceed $1 million;
however, neither the monthly status meetings nor other reports identify the entity making the
ASAP draws.

Table 5. Treasury Cash Drawdowns Made by Entities Other Than Grantee
                                                               Total Drawdowns,   No. of      Duration of
BTOP Grantee (OIG Sample)
                                                               Sept. 30, 2011     Drawdowns   Drawdowns
CCI Grantee10                                                     $7,286,396          26       14 months
CCI Grantee 13                                                     2,085,824          14       16 months
Total                                                             $9,372,220          40
Source: OIG sample based on NTIA data

We notified NTIA of this additional risk factor and of the importance of closely monitoring the
2 grantees in question and determining if this risk factor was present in the remaining 203 grant
recipients not in our sample. NTIA reported that it has addressed this weakness with both

                                                            
9
 U.S. General Accounting Office, November 1999. Standards for Internal Control in the Federal Government,
GAO/AIMD-00-21.3.1. Washington, D.C.: GAO.


FINAL REPORT NO. OIG-12-029-A                                                                                             8
  DEPARTMENT OF COMMERCE
U.S.                                                                                                   OFFICE OF INSPECTOR GENERAL

grantees and, at our request, initiated a review of all other BTOP grantee access to the
Treasury ASAP system and has communicated the risks and the need for additional monitoring.

As an example of how this internal control vulnerability can affect a program grant, for one
grant, that has since been terminated, in a different NTIA grant program, the grantee gave a
consultant access to the Treasury ASAP system, and the consultant drew down almost
$322,362 for personal use rather than for equipment for the project. OIG investigators were
able to recover about $131,965, and the consultant has been indicted. Although this case did
not involve a BTOP grantee, this same risk of weak internal controls over cash could be
present in BTOP grants.
Department of Commerce standard terms and conditions permit drawdowns for expenses
anticipated within 30 days.10 NTIA’s review of ASAP on a weekly and monthly basis highlights
individual grantee drawdowns exceeding $1 million, large-percentage drawdowns, and grantees
nearing substantial completion, which provides assurance that drawdowns are being monitored.
While NTIA regularly monitors grantees’ Treasury ASAP system cash drawdowns, our review
of the September 30, 2011, comparison of expenditures with cash drawdowns noted that 17
percent of BTOP grantees (40 of 229) had collectively drawn down more than $17 million of
federal funds in excess of their expenditures. Additionally, drawdowns for 5 grantees exceeded
$1million. As tables 6 and 7 show, we noted improvements in our March 31, 2012, comparison
of drawdowns and grantee reported expenditures. However, the drawdowns must be
continuously monitored, so that they remain in line with expenditures.

Table 6. Comparison of BTOP Grantee Expenditures with Cash Drawdowns
Range of Drawdowns Exceeding                                   Total Drawdowns Exceeding               Total Drawdowns Exceeding
Expenditures                                                   Expenditures as of September 30, 2011   Expenditures as of March 31,
                                                                                                       2012
                                                                  Drawdowns            Number of         Drawdowns         Number of
                                                                                       Grantees                             Grantees
$1 million+                                                       $12,563, 200               5                                 0
$500,001 to $1million                                               1,316,022                2            $1,751,361           2
$100,001 to $500,000                                                2,935,909               13              645,575            4
$10,001 to $100,000                                                   450,495               10              191,583            6
$.01 to $10,000                                                         9,496               10               19,714           14
Expenditures exceed drawdowns                                              0               189                    0          202
                                                                  $17,275,122              229            $2,608,233         228
Source: OIG sample based on recovery.gov and NTIA data




                                                            
10
  U.S. Department of Commerce, March 2008. Financial Assistance Standard Terms and Conditions. Washington,
D.C.: Department of Commerce, 2.  


FINAL REPORT NO. OIG-12-029-A                                                                                                          9
  DEPARTMENT OF COMMERCE
U.S.                                                                                           OFFICE OF INSPECTOR GENERAL

Table 7. BTOP Grantees with the Five Largest Total Cash Drawdowns
in Excess of Expenditures
             September 30, 2011                                          March 31, 2012

                                Drawdown                                         Drawdown
                                Exceeding                                        Exceeding
                               Expenditures                                     Expenditures
Grantee                         $ 4,025,511                    Grantee            $ 986,460
Grantee                            3,704,375                   Grantee             764,901
Grantee                            2,623,618                   Grantee             223,860
Grantee                           1,168,926                    Grantee             170,815
Grantee                           1,040,771                    Grantee             141,404
Total                        $12,563,201                        Total            $2,287440
Source: OIG sample based on recovery.gov and NTIA data
Note: Grantees are arranged by amount of expenditure (highest to lowest for
top five) but are not the same across periods.

For prior quarters, we requested additional information from NTIA to verify that the recipients
expended the advances within the 30 days allowed. NTIA found that those recipients either
returned the excess timely, reported incorrectly and made subsequent corrections to their
reporting, or were instructed by the grants office to retain the excess.

Recommendations

We recommend that the Assistant Secretary for Communications and Information:

       1.	 Formally communicate the risk associated with third-party cash drawdowns to all grant
           recipients and stress the importance of increased monitoring on their behalf when
           allowing third parties to draw down grant funds from the Treasury ASAP system.

       2.	 Implement program office controls to closely monitor ASAP drawdowns on a timely
           basis, especially those grant recipients that have delegated ASAP system access to third
           parties.

III. NTIA Needs to Ensure That BTOP Grantees Record Their Grant Match
     in Their Financial Records

Federal Cost Principles11 and Uniform Administrative Requirements for Grants12 require recipient
match to be recorded in the recipient’s financial records regardless of its source. Also, NTIA
issued supplemental guidance, the Recipient and Third-Party In-kind Contributions Fact Sheet, in
February 2011 to grantees requiring that cost sharing or match be verifiable from the grantee’s


                                                            
11
      2 C.F.R. parts 220, 225, 230; 48 C.F.R. part 31.
12
      15 C.F.R. parts 14, 24.


FINAL REPORT NO. OIG-12-029-A                                                                                          10
  DEPARTMENT OF COMMERCE
U.S.                                                                                           OFFICE OF INSPECTOR GENERAL

records.13 However, we found that 8 (32 percent) of the 25 grant recipients in our sample
tracked match contributions using offline software (spreadsheets) but did not record more than
$3.2 million of in-kind and subrecipient match in their financial records (see table 8). Recipients
need to record all costs in their financial records, to document grant match and to ensure that
all costs are subject to annual audit. For instance, if a recipient claims donated equipment as
match, it must be recorded in the recipient’s financial records to ensure that it is not being
claimed as match for other federal awards and that the value of the equipment can be assessed
during an annual audit.

NTIA monitoring efforts currently include grant recipient site visits and, as noted previously,
match must be included in the recipient’s accounting records. The site visits include a general
review of proposed match; however, NTIA does not verify that match expenditures are
appropriately recorded and supported. In response to our report dated November 2011, NTIA
Has an Established Foundation to Oversee BTOP Awards, But Better Execution of Monitoring Is
Needed, NTIA agreed to revise their site visit processes to include the request for supporting
match valuation documentation as well as seeking additional match information when match
concerns are identified. We estimate, based on the $102 million in our proportion-to-
population sample, that the undocumented match for the remaining 204 BTOP grants could
range from $88 million to $329 million. As such, NTIA should continue to emphasize the need
for match to be recorded in recipient records.

Table 8. Grantees with Unrecorded Match
BTOP Grantee (OIG Sample)                                      Award Type   Match            Unrecorded      Percent
                                                                            Reported,        Match Amount    Unrecorded
                                                                            Sept. 30, 2011
CCI Grantee 6                                                      CCI          $1,764,331      $1,653,932       93.7%
SBA Grantee 4                                                      SBA             528,918        528,918       100.0%
PCC Grantee 1                                                     PCC              358,425        358,148       99.9%
SBA Grantee 2                                                      SBA             319,119        319,119       100.0%
PCC Grantee 5                                                     PCC              206,926        206,926       100.0%
PCC Grantee 6                                                     PCC               72,251         72,251       100.0%
SBA Grantee 3                                                      SBA              97,359         85,903        88.2%
PCC Grantee 4                                                     PCC              328,278         15,405        4.7%
Total                                                                           $3,675,608      $3,240,602
Source: OIG sample based on NTIA data

In a previous report,14 we found that some grantees submitted erroneous financial reports and
that federal program officers (FPOs) needed to verify match to source documents. We
                                                            
13
    U.S. Department of Commerce, National Telecommunications and Information Administration, December 2011. 

Fact Sheet: Broadband Technology Opportunities Program Recipient and Third Party In-kind Contributions, Version 4.

Washington, D.C.: Department of Commerce, 1. 

14
    U.S. Department of Commerce Office of Inspector General, November 2011. NTIA Has an Established Foundation 

to Oversee BTOP Awards, But Better Execution of Monitoring Is Needed, OIG-12-013-A. Washington, D.C.: Department 

of Commerce OIG.
 


FINAL REPORT NO. OIG-12-029-A                                                                                             11
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

concluded that more than 40 PPC and SBA awards were not likely to have their BTOP grants
included in independent audits because BTOP funds were a very small part of the grantees’
federal funds spent. To enable NTIA to prepare guidance for FPOs to use in their review of
recipient match during their site visit process, we reported these issues as finding III in our
previous report. The NTIA audit action plan for that report agreed to revise site visit
documentation to include match valuation and to seek additional match information for specific
cases, as needed.

Recommendation

We recommend that the Assistant Secretary for Communications and Information:

       1.	 Communicate to BTOP grant recipients that match expenditures must be supported
           and correctly reflected in each grantee’s financial records. This can be communicated
           through BTOP webinars or grantee workshops and by responding to questions about
           match in quarterly financial reports. In addition, BTOP federal project officers can verify
           that documentation to support match exists during any scheduled site visits.

IV. NTIA Needs to Ensure That Match Contributions Are Proportionate
    to Grant-Funded Expenditures

The Department of Commerce has had a long-standing requirement for programs to ensure
that grantees are contributing their nonfederal match in proportion to the federal share.15
Although NTIA monitors match contributions, there continues to be a risk that BTOP grantees
may not provide their proposed match to complete projects on time.

For the reporting period that ended December 31, 2011, 49 (21 percent) of the 228 BTOP
grant recipients did not meet their recipient match requirement by 2 percent or more (see
figure 2 and table 9). NTIA, through its agreements with NIST and NOAA Grants Offices to
provide grant management services, has instituted a process to review quarterly grantee
financial reporting, to determine if proportional match spending requirements are being met. As
part of this process, NTIA can recommend that the Grants Office waive proportionality
requirements if the grantee has a plan in place to meet match requirement in the following
reporting period. Causes for match proportionality waivers include (1) PCC and SBA grantees
making large equipment and supplies purchases with federal funds at the beginning of the award
but providing staff salaries and training as in-kind match throughout the award, and (2) CCI
projects using federal funds early in the award to pay for environmental assessments and/or
equipment purchased but providing other construction expenditures later in the award period
as their match.




                                                            
15
  U.S. Department of Commerce, March 2008. Financial Assistance Standard Terms and Conditions, section A.03.b.
Washington, D.C.: Department of Commerce. 


FINAL REPORT NO. OIG-12-029-A                                                                                    12
  DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL

Figure 2. Status of Grant Recipients in Meeting Their Match Requirement, for the Reporting
PeriodThat Ended December 31, 2011

                          11
 Behind Schedule                 19
                                 19                                                   SAB
                                                                                      PCC
                                      32
       On Schedule                           46                                       CCI
                                                                         101

                     0      20         40         60        80     100         120    

Source: OIG based on NTIA data

Table 9. Grantees That Are Behind Schedule with Their Match
Award        # of        December 31,         December 31,         Difference        Percentage
Type        Awards       2011, Match          2011, Match                            Difference
                          Required             Provided


CCI           19            $78,113,301           $41,831,046       $36,282,255             46%

PCC           19                12,591,785             7,563,694         5,028,091          40%

SBA           11                23,893,476         14,492,073            9,401,403          39%

Total         49         $114,598,562             $63,886,813       $50,711,749             44%
Source: OIG based on NTIA data

Although match proportionality waivers decreased from 72 for the quarter that ended on March
31, 2011, the number of grant recipients that were not in compliance with proportionality clauses
was significant. As of March 31, 2012, 3 (12 percent) of the 25 grantees in our sample did not
provide matching share proportionate to grant-fund expenditures, with an overall shortage of
close to $2 million, and only 2 of these 3 grantees had written proportionality waivers.

Recommendation

We recommend that the Assistant Secretary for Communications and Information:

      1.	 Work with NIST and NOAA grants officers to provide NTIA with the BTOP grantees’
          quarterly financial status reports and monitor the contribution trends and
          proportionality waiver activity to ensure grantees are providing their required match.

Other Issues

On February 11, 2011, the OIG received a complaint on Clackamas County, Oregon, BTOP
grant match and several technical issues. We referred the technical issues to NTIA for
resolution using a new NTIA complaint resolution process. On December 5, 2011, NTIA
responded to the complaint’s technical issues by stating that the BTOP award is a final agency


FINAL REPORT NO. OIG-12-029-A                                                                                13
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

decision that is not subject to third-party appeal, and after reviewing the facts, NTIA declined
to recommend corrective actions on the Clackamas award. These technical issues were outside
the scope of this audit, and, therefore, we did not specifically analyze NTIA’s review or their
conclusions in conducting our fieldwork and forming our findings and recommendations relating
to NTIA’s oversight of grant match.

We reviewed the Clackamas County, Oregon, BTOP grant with a proposed $3,344,649 match.
To obtain evidence on the Clackamas County match, we

    1.	 reviewed the Clackamas County BTOP grant file, including the proposal and grant
        award, and discussed the grant match with the NOAA grants officer and the NTIA FPO
        for the grant,

    2.	 met with Clackamas County financial and program officials for the BTOP grant to
        discuss matching share budgeted line items and the role of match in the BTOP approved
        project,

    3.	 analyzed supporting documentation for the reasonableness of the Clackamas County
        BTOP grant match, including third-party valuation of the right-of-way and pole fees by
        two municipalities and the Portland, Oregon, General Electric Company,

    4.	 examined the NTIA BTOP match matrix review process to determine if NTIA identified
        all sources of match to be contributed and if the total amount of the proposed match
        changed from the original approved budget, and

    5.	 reviewed federal cost principles and the NTIA BTOP Notice of Funds Availability to
        determine the allowability and allocability of the proposed and contributed match.

We concluded that the types of match proposed were allowable under federal cost principles
and the BTOP Notice of Funds Availability and that the valuation of the proposed match
amount was reasonable.




FINAL REPORT NO. OIG-12-029-A                                                                    14
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and OIG
Comments
In response to our draft report, the Assistant Secretary for Communications and Information
stated that NTIA is taking appropriate action to address our recommendations. The response
also summarized the steps NTIA has implemented and will take to address the
recommendations.

OIG met with NTIA officials after issuing the draft report. We have made slight modifications
to the report based on constructive comments and subsequent information NTIA provided at
that meeting. Also, we have updated tables and figures to reflect current information.

NTIA has responded that they have taken steps to strengthen its oversight of BTOP recipients’
match, and we encourage NTIA to continue its efforts. We look forward to reviewing NTIA’s
action plan, which addresses our concerns in greater detail.




FINAL REPORT NO. OIG-12-029-A                                                                   15
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
We initiated this audit in April 2011 as part of our continuing oversight of NTIA’s Broadband
Technology Opportunities Program (BTOP). The objectives of our audit were to (1) determine
whether NTIA has processes in place to ensure BTOP matching share contributed by grantees
meets the terms and conditions of the award, (2) assess how NTIA monitors the grantees’
match throughout the grant award period, and (3) review how NTIA and grants officers
address grantees’ postaward requests for changes in type of match (e.g., cash, equipment, or in-
kind contributions) and changes in subrecipients or other partners that agreed during the
application process to provide matching share. Fieldwork was completed between April 2011
and February 2012.

NTIA has a process in place to monitor grant recipients’ match throughout the award, including
the postaward period. The process includes developing a match review process, monitoring
cash drawdowns, reviewing grantees’ quarterly financial reports for matching share, and
documenting proportionality waivers for grantees behind on their quarterly match
proportionality rate.

To meet our objectives, we reviewed BTOP compliance with laws, regulations, policies, and
procedures, including

    	 the American Recovery and Reinvestment Act of 2009,

    	 the July 9, 2009, and January 22, 2010, Notice of Funds Availability for the Broadband
       Initiative Program and BTOP,

    	 Department of Commerce Grants Manual,

    	 Department of Commerce financial assistance standard terms and conditions and BTOP
       special terms and conditions for grantee match,

    	 Office of Management and Budget circulars and federal cost principles that were terms
       and conditions of the BTOP grant awards,

    	 BTOP’s Recipient Handbook FY 2010, and

    	 BTOP’s Recipient and Third-Party In-kind Contributions Fact Sheet, February 2011.




FINAL REPORT NO. OIG-12-029-A                                                                   16
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL

To gain an understanding of internal controls and assess how NTIA monitors the grantees’
match throughout the grant period, we interviewed pertinent staff, including

    	 NTIA compliance officials and BTOP federal program officers,

    	 NIST and NOAA grants management personnel, and

    	 grantee financial and program personnel contacted by telephone for a random sample of
       25 grantees selected proportional to population and in-person for Clackamas County,
       Oregon to obtain supporting documentation for their nonfederal match and how the
       match met federal cost principles and BTOP program requirements.

To review how NTIA and grants officers address grantees’ postaward requests for changes in
type of match (e.g., cash, equipment, or in-kind contributions) and changes in subrecipients or
other partners that agreed during the application process to provide matching share, we
selected a random sample of 25 grantees, described in more detail in appendix B. We tested
the sample of 25 grantees’ matching share by several means, including

    	 comparing the amount, type, and budget line items for grantee match proposed in the
       BTOP application with the amount, type, and budget line item of grantee match
       reported in the grantees’ grant file in the NOAA Grants Online or the NIST Grants
       Management Information System,

    	 obtaining and reviewing the BTOP match matrix review used by BTOP federal program
       officers to confirm the amount, type, and budget line item of grantee match,

    	 tracing the grantees’ match from the NIST and NOAA grant files to the grantees’ most
       recent financial status reports (SF 424, 425) and then to the grantees’ general ledger and
       obtaining and reviewing supporting documentation for a sample of the grantees’ match,

    	 reviewing BTOP grantee proportionality match waiver statistics for our sample, and

    	 comparing the grantees’ BTOP grant award amount with the grantees’ major program
       for their most recent audit on file with the Census Federal Audit Clearinghouse to
       determine the likelihood that grantee match would be audited as part of a major
       program.

In addition to the random sample, we reviewed the grantee match for the BTOP CCI grant
awarded to Clackamas County, Oregon. This grant was selected for review based on a
complaint received by the Inspector General. The complaint is discussed in the Other Issues
section of the findings.

In testing for BTOP oversight of grantees’ match, we relied on the assessment completed for
our November 2011 report, NTIA Has an Established Foundation to Oversee BTOP Awards, But
Better Execution of Monitoring Is Needed, where we assessed the reliability of the NOAA Grants
Online and NIST Grants Management Information System by interviewing officials
knowledgeable about the systems and their data and reviewing related reports. Also, we tested


FINAL REPORT NO. OIG-12-029-A                                                                     17
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL

the accuracy and reliability of grantees’ reported results in the systems with the grantees’
financial management system and related source documents for cash, in-kind, and subrecipient
match. We determined that the data were sufficiently reliable for the purposes of this report.

We performed our work in accordance with generally accepted government auditing standards.
These standards require that we plan and perform our audit to obtain sufficient, appropriate
evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.
We conducted our review from April 2011 through February 2012 under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order 10-13. We
performed our work at the Department of Commerce headquarters and NTIA offices in
Washington, D.C.; at NIST in Gaithersburg, Maryland; at NOAA in Silver Spring, Maryland; and
in Oregon City, Clackamas County, Oregon.




FINAL REPORT NO. OIG-12-029-A                                                                    18
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL


Appendix B: OIG Sample Methodology
To review how NTIA and grants officers address grantees’ postaward requests for changes in
type of match (e.g., cash, equipment, or in-kind contributions) and changes in subrecipients or
other partners that agreed during the application process to provide matching share, we
selected a random sample of 25 grantees.

The proportionate stratified sample of 25 grantees assured representation of the three sub-
populations of BTOP grantees (CCI, PCC, and SBA), minimized margin of error, and permitted
the team to estimate sample results for the population of 228 BTOP grantees. Table 10 breaks
the BTOP grantee population into three strata. Table 11 provides a breakdown of BTOP grants
included in the sample tested by OIG, and table 12 provides the detailed results of the sample.

Table 10. BTOP Grant Awards Federal and Matching Fundsa
Project    Award
                           Federal Funds         % of Total       Recipient Match        Total Project Cost
Type         s
CCI          120          $3,358,774,652               88         $1,198,699,569          $4,557,474,221
PCC           65                199,244,164             5             85,023,612             284,267,776
SBA            43          249,525,540                  7            106,642,208             356,167,748
Total         228       $3,807,544,356                100         $1,390,365,389          $5,197,909,745
Source: OIG based on NTIA data
a
  See footnote 5.

Table 11. OIG BTOP Grant Test Sample Federal and Matching Funds
                                                  %
Project
            Awards        Federal Funds       Population      Recipient Match          Total Project Cost
Type
                                               Category
CCI            13         $275,130,900            8            $ 90,067,119              $365,198,019
PCC             7               11,442,712        6               5,242,551                 16,685,263
SBA             5           13,951,475            6               6,343,617                 20,295,092
Total          25        $300,525,087            20            $101,653,287              $402,178,374
Source: OIG based on NTIA data

From the time of our sample selection until the completion of our audit, the number of SBA
grantees was reduced from 44 to 43 by the deobligation of funds for the grant awarded to the
City of Tallahassee, Florida.




FINAL REPORT NO. OIG-12-029-A                                                                                 19
 


Table 12. OIG Sample Results16
                                                                                                                                                Allowable,
                                                                                                              Changes in                      Allocable, and                     Quarter 1 2012
           Recipient in OIG                         Federal Award                                         Matching Share                       Reasonable      Proportionality   Proportionality
    Type Sample                               Dollars Obligated      Matching Share        Total Award        Line Items     $ Match Tested       Costs           Waiver             Variance ($)
     SBA SBA Grantee 1                          $        6,856,399   $     3,134,876   $      9,991,275                      $    1,018,051        Yes              N/A          $             -
     SBA SBA Grantee 2                                   1,457,488          556,929           2,014,417                            255,103         No               N/A                        -
     SBA SBA Grantee 3                                   2,131,322          699,324           2,830,646                             53,052         No               Yes                   110,420
     SBA SBA Grantee 4                                     980,591          728,351           1,708,942                            238,824         Yes              N/A
     SBA SBA Grantee 5                                   2,525,675         1,224,137          3,749,812                            479,784         Yes              N/A
    PCC PCC Grentee 1                                      698,924          541,144           1,240,068                            222,385         Yes              N/A
    PCC PCC Grantee 2                                    1,477,722          410,399           1,888,121                             20,800         Yes              Yes                   109,074
    PCC PCC Grantee 3                                    4,680,963         2,236,060          6,917,023                           1,186,800        Yes              N/A
    PCC PCC Grantee 4                                    1,829,473          867,231           2,696,704                            193,339         Yes              N/A                      9,837
    PCC PCC Grantee 5                                      536,737          230,030             766,767                            206,926         Yes              Yes
    PCC PCC Grantee 6                                    1,434,893          746,687           2,181,580                            180,810         Yes              No
    PCC PCC Grantee 7                                      784,000          211,000             995,000                             17,201         Yes              N/A                        -
     CCI CCI Grantee 1                                 22,698,010         13,522,526         36,220,536                           4,117,293        Yes              No                  1,768,050
     CCI CCI Grantee 2                                   9,604,840         4,701,924         14,306,764             20,496         577,592         No               N/A                        -
     CCI CCI Grantee 3                                 11,252,066          5,350,633         16,602,699           156,782          898,753         Yes              N/A                        -
     CCI CCI Grantee 4                                   3,201,760          814,104           4,015,864           441,039          236,548         Yes              N/A
     CCI CCI Grantee 5                                 99,660,678         29,297,353        128,958,031           791,632         6,946,965        Yes              No
     CCI CCI Grantee 6                                   8,325,530         2,113,505         10,439,035             32,050          99,849         Yes              N/A
     CCI CCI Grantee 7                                 24,606,978          6,151,744         30,758,722                            531,393         Yes              N/A
     CCI CCI Grantee 8                                 11,547,866          4,949,086         16,496,952           322,814         1,008,021        Yes              No
     CCI CCI Grantee 9                                 19,643,717          5,327,550         24,971,267                            159,355         Yes              N/A                      2,572
     CCI CCI Grantee 10                                30,142,676          9,227,000         39,369,676                            140,083         Yes              Yes
     CCI CCI Grantee 11                                  1,648,941          412,235           2,061,176                             21,461         Yes              N/A                        200
     CCI CCI Grantee 12                                27,257,838          6,814,459         34,072,297           337,079         1,556,106        Yes              N/A
     CCI CCI Grantee 13                                  5,540,000         1,385,000          6,925,000                            312,766         Yes              N/A                        -
           Total                                $     300,525,087    $   101,653,287   $    402,178,374   $     2,101,892    $   20,679,259                                      $      2,000,153

                                                            
16
   Changes in Matching Share Line Items are discussed in finding I. 

$ Match Tested represents the total amount of recipient match tested to determine compliance with BTOP award conditions and federal cost principles. 

The costs that did not comply, as noted in the Allowable, Allocable, and Reasonable Costs column, were immaterial. 

The data in the last two columns—Proportionality Waiver and Quarter 1 2012 Proportionality Variance ($)—are a subset of the data discussed in 

finding IV.  

 
 
    U.S. DEPARTMENT OF COMMERCE                                                 OFFICE OF INSPECTOR GENERAL

    Appendix C: NTIA’s Criteria, Data, and 

    Report Review of BTOP Grant Match 

                        Overview of NTIA’s BTOP Grant Match Monitoring
      Eligible costs,                                                                   Single audits and
                                                          Accounting and financial
    including grantee           Cash management                                         program-specific
                                                                reporting
          match                                                                               audits
                                                  Criteria
                         Notice of Funds Availability July 9, 2009, and January 22, 2010
                          Department of Commerce standard terms and conditions
                              Treasury Automated                Federal uniform             OMB Circular
      Federal cost
                           Standard Application for              administrative          A-133 + BTOP audit
       principles
                                    Payment                      requirements                  guides



                                       Data and Report Reviews
Proposal and budget        Treasury ASAP drawdown       Quarterly financial reports
                                                                                         Audit reports
   amendments                       reports                   (424s, 425s)



                                                Monitoring
                            BTOP weekly + monthly             BTOP match
Match review matrix                                                                   BTOP audit reviews
                                  reports                 proportionality waivers



                                             Results/Findings
                                 NTIA identifies necessary corrective actions



                                     Monitoring Level Adjustment
                             NTIA adjusts monitoring based on corrective actions
Source: OIG chart based on NTIA data

 




                                                                                                            21 
FINAL REPORT NO. OIG-12-029-A
 
    U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL

    Appendix D: Agency Response
                                                               UNITED STATES DEPARTMENT DF COMMERCE
                                                               The Assietant Secretary for Communication&
                                                               and Information
                                                               Woohlngl:()n, D.C. 20230




                                                                  JUII   6 20!2
          The l!onomblc Todd J. Zinser
          Tn~pcctor General
          United Slates Depru1ment of Commerce
          1401 Con.slitution Avenue, N.W.
          Washington, D.C. 20230

          Dear Mr. Zinser:
          This Jetter is in reply to your May 3, 2012 draft report, NT/A Needr Stronger Monitoring of
          JJTOP Grant Recipients· Match (Draft Report). The National Telecommunications und
          lniormation Administration's (NT!A's) monitoring processes and tools set\•e a valuable function
          of the agency's oversight of the Broadband Technology Opportunities Program (BTOP), a S4
          billion grant program authorized by the American Recovery and Reinvestment Act of2009
          (Recovery Act). Tappreciate that your office recognizes that NTIA has established
          comprehensive processes to assess and monitor recipients' BTOP matching share contributions.
          As detailed below, we an: taking oppropriutc uclion to nddress the recommcndul ions described in
          the Draft Report

          As you have noted in previous reports, NTIA bas implemented a rigorous monitoring and
          oversight plan for BTOP grants. NTIA 's regular monitoring includes multiple reviews for
          recipients' adherence to their matching share requirements, including cash drawdown
          monitoring. pcrfommnce report reviews, risk assessment analysis, and site visit feedback. In
          ttddition to its monitoring, N11A has provided recipients with varimL'I fonns of guidance
          regarding the BTOP matching share requirement. This guidance ranges from the BTOP
          Recipient Handbook 1111d fact sheets, which ure readily available on !be BTOP website, to
          compliance training at recipient workshops. All of these activitieos serve as internal ovenigbt
          controls above and beyond what the National Oceanic and Atmospheric Administration (NOAA)
          and National Institute of Standards and Technology (NISD Grants Offices provide to ensure that
          recipients cxpcncl ftmds at an appropriate rate and meet their matching requirements.

          In addition to our comprehensive day-to-day monitoring, NTIA instituted a process in December
          2010 to thoroughly review a recipient's matching share contribution. lbrough tlus process,
          NTIA reviews and analyzes the allowability, consideration, source, consistency, and valuation of
          each recipient's proposed cash and in-kind match sources. NTIA documents results of these
          reviews in a match matrix, which allows NTIA to better monitor recipient match proportionality
          and validate oompliancc with nwa.rd requirements to provide matching share. Oivcn our limited
          program resources, NTIA has applied this match review process to those grants representing the
          greatest programmatic risk. NTIA selected 16 1 projects, which represent approximately 72
          percent of the BTOP portfolio and 95 percent of award funds, to conduct a thorough match
          review analysis and match share verification. NTlA appreciates that OIG has recognized our
          match review process as a best practice.




                                                                                                             22 
FINAL REPORT NO. OIG-12-029-A
 
    U.S. DEPARTMENT OF COMMERCE                                                  OFFICE OF INSPECTOR GENERAL


    Nonethclcss, we can always do better and we are taking seriously your suggestions on ways to
    improve the administration of N'rlA's oversight and monitoring ofihe BTOJ' portfolio. We
    recognize the importance of your recommendations and, as [ outline below, we are taking
    immediate steps to address each of theJIL

    Strengthen Monitoring of PCC tmd SBA Match A mount~

    As the Droll Report notes, N11A ' s match matrix process has been an effective tool to help us
    assess whether BTOP recipients are rneetiog federal match requirements and oost principles.
    lltrOugb March 2012, NTIA and recipients worked together to finalize match reviews for 147
    projects or 91 percent of !he 161 selected projects. The finalized reviews acoount for 71 percent
    of award funds, including a significant percentage of the BTOP Public Computer Centers (PCC)
    and Sustainable Broadband Adoption (SBA) awards. However, the Draft Report recommends
    that NTIA expand our match review process to a larger percentage ofPCC and SBA recipients,
    as 1.\'ell as review specific budget line item details.

    NTIA and the NIST Grants Oftice reviewed the aUowability of recipients' proposed in-kind
    match prior to awarding any PCC or SBA grants. Moreover, the NIST Grants Office requires
    recipients to amend their budgets, if they make 11 change to any of their match sources. At that
    time, NTTA and NTST review proposed changes in detail and will Continue to follow this
    estabHshed process to review specific budget line ilem details. In line with yotll'
    recommendation, however, NTIA will increase the rmli'lbcr of match reviews for PCC and SBA
    projects to a larger percentage of recipients by expauding U1e init.iaJ risk profile to PCC and SBA
    awards over $3 million.

    Continue to Bolster Recipientlnternal Controls for Cash Drawdow11s

    The Draft Report recommends that NTIA formally communicate the risk associated with third­
    party cash drawdowns to all recipients and stress the irnpor1Mce of increased monitoring when
    allowing third parties to d.mw down grant funds from the Treasury Automated Stand!lrd
    Application for Payment (ASAP) system. NTIA worked closely with the Department of
    CollUllerce Office of General Counsel Federal Assistance Law Division to determine whether
    allowing third party drawdowns would be appwpriatc in limited circumstances. For example, it
    may be appropriate to allow third parties to )lave access to a recipient's ASAP account, when a
    parent oompany provides aU acex>llllting and financial services to a subsidiary oompany that bas a
    DTOP grant. As a result, in February 2012, NTIA advised recipients to limit ASAP access to
    staff directly within their organizations and not allow subrecipients;vendors, or contractors
    access to directly draw down funds. NTIA also noted that if recipients bad unique circumstances
    that might justify allowing others direct access to ASAP, they should oonsult with their Federal
    Program Officer (FP.O).

    The Draft Report also recommends that N'OA implement program office oontrols to closely
    monitor ASAP drawdowns on a timely basis, especially for recipients that have appropriately




                                                                                                          23 
FINAL REPORT NO. OIG-12-029-A
 
    U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL


    delegated ASAP system access to third parties. As noted in the Draft Repori, NTIA has an .
    established process for reviewing and monitoring ASAP dmwdowns on a weekly and monthly
    basis. Because NTIA does not have direct access to ASAP, we worked closely with the NIST
    and NOAA Grants Offices to evaluate which individuals have access to each recipient's ASAP
    account. As a result of this review, NTIA advised a few recipients to change the personnel that
    have access to ASAP. Although the current review process remains an effective monitoring tool,
    N11A will monitor more closely Ute recipients that have been identified as having delegated
    ASAP systems access to third parties in order to reduce the risk of a drawdown being used for
    unauthori7.ed purposes.

    Contittue to Improve Recipient Match R ecordkeeping

    The Draft Report recommends that NTIA: l) add a process to its site visits to verify recipient
    match source documentation; 2) communicate to recipients !hat they must support match
    expendi tures and must conectly reflect them in their grantee financial records; and 3) respond to
    match questions in recipients' quarterly financial reports. NTTA agrees with these
    recommendations. Effective February 2012, NTTA modified portions oftbe BTOP Site Visit
    Checklist to include a list of "Required Documents" that recipients should be prepared to make
    available to their FPO. This modified checklist includes additional guidance for recipients
    specifically relating to the importance of match valuation and to maintaining the required
    suppotting documentation for any claimed match. In May 2012, to further emphasize the
    importance of properly recording match in financial records, NTIA compliance staff informed
    BTOP recipients at a recipient conference that they must :record -all matching share contributions
    in their books, and they must have records and verifiable documentation to support tl1ose entries.

    Develop Strategy for Ens uring Prf!porlionate Recipie11t Match Contributions

    The Draft Report recommends that NTIA work with the NIST and NOAA grant officers to
    obtnin BTOP recipients' quarterly financial status reports and monitor the contributiou.trends
    and proportionality waiver activity.lo ensure recipients are providing their required match.
    NTIA agrees with tlJe recommendation and we will conti nue to collaborate closely with the
    NOAA and NIST Grants Offices on these issues. In addition to working with the NOAA and
    NIST Grants Offices to assess whether BTOP recipients are expending funds proportionately,
    NTIA conducts a thorough review of each recipient's match, as recorded in their quarterly
    financial reports. Specifically, NTIA assesses whether BTOP recipients are contributing their
    match in proportion to their federal expenditures. If we discover any match proportionality
    issues, NTIA will fol1ow up direcl.ly with recipients during regular monitoring calls and
    scheduled site visits to !'esolve the issues. If recipients request a tempomry waiver of the
    proportionality requirement, NTIA works closely with the recipients to ensure they have a plan
    for returning to compliance with this requirement.




 




                                                                                                         24 
FINAL REPORT NO. OIG-12-029-A
 
    U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


    I look forward to continuing to work with you as NTIA carries out this important program to
    expand broadband access and adoption in the United States, create jobs, and lay a new
    foundation for economic growth in America. IfNTIA may be of further assistance, please
    contact Milton Brown, NTIA's Liaison to the OIG, at (202) 482-1853.

                                                       Sincerely,




    cc:    Ann Eilers, Principal Assistant Inspector General for Audit and Evaluation
           Anthony Wilhelm, Deputy Associate Administrator, Office of Teleconummications and
           Information Application, NTIA
           Milton Brown, NTIA Audit Liaison
           John Bunting, Senior Auditor, Recovery Act Task Force, OIG
           Chris Rose, Senior Auditor, Recovery Act Task Force, OIG
           Aimee Meacham, Director of BTOP Program Services, NTIA




BTOP000124 


                                                                                                  25 
FINAL REPORT NO. OIG-12-029-A
